POSTAL REGULATORY COMMISSION
  OFFICE OF INSPECTOR GENERAL




  SEMIANNUAL REPORT TO CONGRESS

    October 1, 2010 through March 31, 2011
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information ........................................................................... 8
INTRODUCTION
    THE POSTAL REGULATORY COMMISSION
         The Postal Regulatory Commission (PRC) is an independent federal agency
         established (as the Postal Rate Commission) by the Postal Reorganization Act of
         1970. From its establishment through the enactment of the Postal Accountability
         and Enhancement Act (PAEA) of 2006, the Commission primarily received
         United States Postal Service proposals for domestic mail rates and classifications,
         presided over litigation regarding those proposals, and recommended rates and
         classifications to the Board of Governors of the United States Postal Service.
         PAEA, which was enacted on December 20, 2006, re-designated the Commission,
         expanded its jurisdiction to include international mail and service standards, and
         charged the Commission with implementing a new system of postal rate
         regulation.

         The PRC consists of five Commissioners who are appointed for six-year terms by
         the President, with the advice and consent of the Senate. No more than three of
         the Commissioners can be members of the same political party. The President
         designates one of the Commissioners to serve as Chairman, and the
         Commissioners, by majority vote, select one Commissioner to serve as Vice
         Chairman. On December 1, 2010, the Commission elected Mark Acton as Vice
         Chairman.

         During the reporting period, the PRC dealt with three issues of major significance.
         The PRC:

         1. completed its review of an Advisory Opinion on a Postal Service plan to end
            Saturday mail delivery, collection, and outbound mail processing;

         2. began to assess the effectiveness of postal laws and develop recommendations
            for improvements as required by Section 701 of the Postal Accountability and
            Enhancement Act (PAEA); and

         3. issued its Annual Compliance Determination (ACD) assessing the financial
            and service performance of the Postal Service in fiscal year 2010.

THE OFFICE OF INSPECTOR GENERAL
         The Commission established the Office of Inspector General (OIG) on June 15,
         2007 and hired the first Inspector General on June 23, 2007. In October 2010,
         OIG hired a senior auditor. During the reporting period, OIG had three full-time
         employees—the Inspector General, a senior auditor and an administrative
         assistant. OIG was assisted in the conduct of its audits and inspections during


                                          2
       the reporting period by auditors and evaluators on detail from the Postal Service
       Office of Inspector General.



ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDITS AND EVALUATIONS
       Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
       General provides policy direction and conducts, supervises and coordinates
       audits relating to programs and operations of the Postal Regulatory Commission.

       During the reporting period, OIG completed one final audit report, which is
       summarized below:

       FINAL AUDIT REPORT: INFORMATION SECURITY MANAGEMENT AND ACCESS
       CONTROL POLICIES

       This review presents the results of our follow up audit on Federal Information
       Security Management Act (FISMA) compliance as well as access controls in the
       PRC’s information security policy. OIG found that PRC has made progress in its
       information security program; however, it has not fully addressed some areas of
       concern and two prior recommendations remain open. We found that of the 16
       relevant National Institute of Science and Technology (NIST) access control
       standards, the PRC’s information security policy did not address one and only
       partially addressed five.

       OIG recommended that the PRC continue to strengthen its information security
       program in accordance with FISMA, complete a plan of actions and milestones,
       and better align its access control policy with NIST standards. PRC Management
       agreed and committed to implementing all recommendations.

       AUDIT PLANNING - RISK ASSESSMENT

       During the reporting period, OIG developed a risk assessment process to identify
       control weaknesses, potential risk, and vulnerabilities associated with contract
       administration process and operations. As a result, we plan to conduct a series of
       audits and inspections of PRC purchasing and contracting controls and practices.

       ONGOING AUDITS AND EVALUATIONS

       During the reporting period, OIG initiated an evaluation of PRC contract
       acquisition planning to determine compliance with policies and effectiveness of
       internal controls at that stage of the contracting process. This review was ongoing
       at the close of the reporting period.


                                        3
INVESTIGATIVE ACTIVITIES
     Under the IG Act, OIG receives and investigates allegations of fraud, waste,
     abuse and misconduct within the PRC’s programs and operations. OIG
     investigations can give rise to administrative, civil and criminal penalties.

     In order to facilitate reporting of allegations, OIG maintains a hotline (see
     “Contacting the Office of Inspector General,” Page 8). During the reporting
     period, OIG received hotline contacts via postal mail, electronic mail and
     telephone. Many were complaints regarding the United States Postal Service,
     which OIG forwarded for action.

     OIG did not refer any matters for prosecution during the reporting period.

OTHER ACTIVITIES
     REGULATORY REVIEW

     Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed
     Commission rules and regulations. During the reporting period, OIG provided
     informal comments regarding draft Commission regulations and policies,
     including revised leave and performance management policies. OIG did not
     provide comments to PRC on a proposed purchasing policy due to ongoing work
     in this area.

     LIAISON ACTIVITIES

     The Inspector General is a member of the Council of Inspectors General on
     Integrity and Efficiency (CIGIE), which was established on October 14, 2008,
     pursuant to the Inspector General Reform Act of 2008. During the reporting
     period, the Inspector General attended monthly meetings of CIGIE as well as
     meetings of CIGIE’s Legislation and Information Technology Committees.

     PEER REVIEW

     OIG was established in 2007, and at the close of the reporting period had not yet
     conducted or received its first audit peer review. According to CIGIE’s audit
     peer review schedule for 2011- 2013, OIG is scheduled to have its first audit peer
     review conducted by the Federal Trade Commission in FY 2011. In addition,
     OIG is scheduled to conduct a peer review of Federal Maritime Commission’s
     audits in FY 2012.




                                     4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None

  Section 5(a)(14) Peer Review Activity                                              Page 4




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     0             0              0             0
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        0             0              0             0
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 0           0               0
     reporting period.


                        Subtotals (A+B)          0           0               0


C.   For which a management decision
                                                                             0
     was made during the reporting               0           0
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.




                                     8
